NO:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
GEORGE FERRER SANCHEZ,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE
I hereby certify that on this 13th day of September, 2021, a true copy of
Petitioner George Ferrer Sanchez’s Petition for a Writ of Certiorari, Appendix, and
Motion to Proceed In Forma Pauperis was mailed through the United States Postal
Service, first-class mail, postage prepaid, to Brian H. Fletcher, Acting Solicitor
General of the United States, Office of the Solicitor General, U.S. Department of
Justice Room 5616, 950 Pennsylvania Avenue, N.W., Washington D.C. 20530.

/s/ q :

Timothy Cone

Counsel for Petitioner Anderson Jean
1615 New Hampshire Avenue N.W.
4" floor (North)

Washington, D.C. 20009

Tel. (202) 862-4333
